Audit Report




OIG-11-001
SAFETY AND SOUNDNESS: Failed Bank Review of MainStreet
Savings Bank, FSB
October 13, 2010




Office of
Inspector General
Department of the Treasury
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GE NE RAL
                                              October 13, 2010


             OIG-11-001

             MEMORANDUM FOR JOHN E. BOWMAN
                            ACTING DIRECTOR
                            OFFICE OF THRIFT SUPERVISION

             FROM:                 Kieu T. Rubb /s/
                                   Director, Procurement and Manufacturing Audits

             SUBJECT:              Failed Bank Review of MainStreet Savings Bank, FSB


             This memorandum presents the results of our review of the failure of MainStreet
             Savings Bank, FSB (MainStreet). MainStreet opened in 1924 and had a main office
             in Hastings, Michigan, and one branch in Lake Odessa, Michigan. The thrift was
             wholly owned by MainStreet Financial Corporation, a bank holding company
             located in Hastings, Michigan. The Office of Thrift Supervision (OTS) closed
             MainStreet and appointed the Federal Deposit Insurance Corporation (FDIC) as
             receiver on July 16, 2010. At March 31, 2010, the thrift had $97.4 million in total
             assets. FDIC estimated that the loss to the Deposit Insurance Fund is $11.4 million.

             Because the loss to the Deposit Insurance Fund is less than $200 million, as set
             forth by section 38(k) of the Federal Deposit Insurance Act (FDIA), we conducted a
             review of the failure of MainStreet that was limited to (1) ascertaining the grounds
             identified by OTS for appointing the FDIC as receiver and (2) determining whether
             any unusual circumstances exist that might warrant a more in-depth review of the
             loss. In performing our review we (1) examined documentation related to the
             appointment of FDIC as receiver, (2) reviewed OTS reports of examination, and
             (3) interviewed OTS examination personnel.

             We conducted this performance audit during August and September 2010 in
             accordance with generally accepted government auditing standards. Those
             standards require that we plan and perform the audit to obtain sufficient,
             appropriate evidence to provide a reasonable basis for our findings and conclusions
             based on our audit objectives. We believe that the evidence obtained provides a
             reasonable basis for our findings and conclusions based on our audit objectives.
OIG-11-001
Page 2

Causes of MainStreet’s Failure
The primary causes of MainStreet’s failure were its large investment in fixed assets,
high overhead costs, and a very competitive local market. In 1998, MainStreet
purchased a $22 million branch office and constructed a $4 million main office, which
represented approximately 30 percent of the thrift’s total assets. The occupancy and
related personnel expense increased the thrift’s overhead costs significantly and
resulted in weak earnings. Management tried to implement a growth strategy in
deposits and commercial real estate lending but was unsuccessful due to the highly
competitive local market and a low net interest margin. Consequently, MainStreet
could not absorb the increased overhead costs and incurred losses in 8 of the previous
11 years. These conditions were exacerbated by the deterioration in the Michigan
economy. Loan delinquencies and classified assets increased significantly, which
resulted in higher net operating losses that further diminished earnings and capital, and
ultimately, led to MainStreet’s failure.

Conclusion
Based on our review of the causes of MainStreet’s failure and the grounds
identified by OTS for appointing FDIC as receiver, we determined that there were
no unusual circumstances surrounding the thrift’s failure or the supervision
exercised by OTS. Accordingly, we have determined that a more in-depth review of
the thrift’s failure by our office is not warranted.

We provided a draft of this memorandum to OTS management for comment. In its
response, OTS stated that the primary causes of MainStreet’s failure summarized in
this memorandum are consistent with the information contained in its reports of
examination and documents in support of the grounds for receivership. The
response is provided as Attachment 1. A list of the recipients of this memorandum
is provided as Attachment 2.

We appreciate the courtesies and cooperation provided to our staff during the
audit. If you have any questions, you may contact me at (202) 927-5904 or
Katherine Johnson, Audit Manager, at (202) 927-8783.

Attachments
         OIG-11-001

       Attachment 1
Management Response
                                                   OIG-11-001

                                                  Attachment 2
                                                    Distribution


Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Evaluations
   Office of Accounting and Internal Control

Office of Thrift Supervision

   Acting Director
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
